UNITED STATES OF AMERICA

Federal Trade Commission
WASHINGTON. D.C. 20580

Jock Chung
Division of Enforcement
Phone: (202) 326-2984
Email: jchung@ftc.gov

December 14, 2017

Donald S Stein, Esq.
Greenberg Traurig, LLP
2101 L Street, NW, Suite 1000
Washington, DC, 20037

Re: Piirlin, LLC Advisory Opinion
Dear Mr. Stein,
This is in reply to your September 14, and October 27, 2017, letters on behalf of Plirlin,
LLC ("Ptirlin") requesting an opinion that Purlin's bedding is not a product intended for uses
subject to the Textile Products Identification Act, 15 U.S.C. § 70 (the "Textile Act" or "Act"),
and its implementing regulations, the Rules and Regulations Under the Textile Fiber Products
Identification Act, 16 C.F.R. Part 303 (the "Textile Rules" or "Rules"). You request
confirmation that the Textile Act and Rules do not require Ptirlin to attach labels to its recyclable
bedding at the time it provides the bedding to institutions.
As discussed below, based on the facts provided by Ptirlin, staff opines that Ptirlin's
recyclable bedding does not fall within the definition of "household textile article" in Section
70(g) of the Textile Act. Consequently, in our view, Ptirlin's recyclable bedding is not covered
by the Textile Act or the Textile Rules, and Pfulin may provide its bedding to institutions
without labels.
According to your letters and statements to me, the issues present the following facts:
Ptirlin offers woven recyclable bedding (sheets and pillowcases) made from polyester fiber to
healthcare, hospitality, and similar institutions. It does not offer this product to individual
consumers. This bedding is not washed, but after one use is disposed of through recycling.
Ptirlin arranges for the bedding to be recycled into pellets, which are then extruded at high
temperatures into sterilized fibers to be woven into hygienic recyclable fabric. Prior to recycling,
any labels on the bedding must be removed to prevent label ink from contaminating the fibers
produced through recycling. According to Ptirlin, consumer recycling facilities cannot recycle
its bedding.
The Textile Act prohibits the introduction into commerce of any misbranded "textile fiber
product," where such a product is "any household textile article made in whole or in part of yam

or fabric," or fiber, yam, or fabric to be used in a household textile article. 1 The Act defines
"household textile articles" as "articles of wearing apparel, ... beddings, and other textile goods
of a type customarily used in a household regardless of where used in fact. " 2 A product is ·
misbranded if it is not labeled with required information prior to being produced in the form
intended for sale, delivery to, or for use by the "ultimate consumer," 3 defined as "a person who
obtains a textile fiber product by purchase or exchange with no intent to sell or exchange such
textile fiber product in any form. " 4
Most bedding, such as cotton bedding, is of a type customarily used in a household and
consequently falls under the Textile Fiber Act, even when such bedding is used in an institution,
such as a hospital. However, Pilrlin's recyclable bedding is offered exclusively to institutions,
and only they have access to Ptirlin's recycling services. 5 Consequently, in our view, Pilrlin's
recyclable bedding is not a household textile article and therefore not covered by the Textile
Act's or Rules' labeling requirements.
We base this opinion on the specific facts. If, at any time, Ptirlin or any other entity,
offers similar recyclable bedding for household use, its bedding would fall within the Textile
Act's definition of a household textile product and must be labeled pursuant to the Textile Act
·
and Textile Rules. 6
In accordance with Section 1.3(c) of the Commission's Rules of Practice and Procedure,
16 C.F .R. § 1.3(c), this is a staff opinion only and has not been reviewed or approved by the
Commission or by any individual Commissioner, and is given without prejudice to the right of
the Commission later to rescind the advice and, where appropriate, to commence an enforcement
action.

15 U.S.C. § 70(h). The definition excludes products covered by the Wool Products Labeling Act of 1939, 15
U.S.C. 68 et seq.
2 The Act covers such articles even where they are used outside of the house. For example, the Commission has
required industrial work gloves and diving wetsuits to be labeled under the Textile Act. Magid Mfg. Co., Inc., 75
F.T.C. 808 (1969); Dive N' Surf, Inc., 114 F.T.C. 798 (1991).
3 15 U.S.C. 70a(d)(5).
4 15 U.S.C. 70(m). You also suggest that Ptirlin's bedding is not intended for sale, delivery, or for use by the
" ultimate consumer," and therefore Ptirlin could comply with the Rules merely by disclosing required information in
an invoice or other document, e.g., a package label, pursuant to Section 303.31. You assert that the institutions
buying Ptirlin's bedding are not "ultimate consumers" because, at the time they receive it, they intend to eventually
exchange it for new bedding. We disagree with this interpretation. The Act implicitly defines " ultimate consumer"
as a person who obtains a textile fiber product with no intent to sell or exchange it unused. Under the Act, for
example, a manufacturer can provide unlabeled textile fiber products to a wholesaler who intends to sell the
products unused to retailers. Under Ptirlin's contention, however, stores could sell unlabeled garments to be worn
by purchasers, as long as they intend to eventually sell or exchange the garments. This interpretation would obviate
the Act.
5 In fact, because its recycling services are only available to Plirlin 's institutional customers, it would be deceptive to
represent its bedding as recyclable to consumers. See FTC v. AJM Packaging Corp., No. I: I 3-cv- 1510 (D.D.C. Oct.
1, 2013); see Green Guides, I 6 C.F.R. § 260.12 (stating it would be deceptive to advertise a product as recyclable
when recycling facilit ies are unavailable to consumers or communities where the item is sold).
6 Pi.irlin has represented that its woven recyclable bedding is a unique product, and that it has a patent pending for
this product.
1

In accordance with Section 1.4 of the Commission's Rules of Practice and Procedure, 16
C.F.R. § 1.4, your request for advice, along with this response, will be placed on the public
record.

-y~

~~'(h~AA~
Jock Chungvv--

